Case: 20-3310 Document: 68-1

Filed: 07/21/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Filed: July 21, 2021

Mr. Paul Croushore
Law Office
P.O. Box 75170
Cincinnati, OH 45275-0000
Kevin Koller
Office of the U.S. Attorney
221 E. Fourth Street
Suite 400
Cincinnati, OH 45202
Re: Case No. 20-3310, USA v. Qian Williams
Originating Case No.: 1:17-cr-00117-1
Dear Counsel,
The Court issued the enclosed opinion today in this case.
Sincerely yours,
s/Cathryn Lovely
Opinions Deputy
cc: Mr. Richard W. Nagel
Enclosure
Mandate to issue

Tel. (513) 564-7000
www.ca6.uscourts.gov

(1 of 8)

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 1

(2 of 8)

NOT RECOMMENDED FOR PUBLICATION
File Name: 21a0357n.06
Case No. 20-3310
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

FILED

UNITED STATES OF AMERICA,

Jul 21, 2021
DEBORAH S. HUNT, Clerk

Plaintiff-Appellee,
v.

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE SOUTHERN DISTRICT OF
OHIO

QIAN WILLIAMS,
Defendant-Appellant.

Before: BATCHELDER, WHITE, and DONALD, Circuit Judges.
ALICE M. BATCHELDER, Circuit Judge. Qian Williams appeals three rulings by the
district court following his convictions by a jury for drug and firearm offenses. We AFFIRM.
I.
On August 17, 2017, a DEA Agent in a federal-state-local task force applied to a Hamilton
County (Ohio) Municipal Court for a search warrant for two neighboring residential houses:
1412 Randomhill Road and 1416 Randomhill Road. The affidavit described the task force's
evidence, including multiple large-scale controlled drug buys, that showed probable cause to
believe that Qian Williams was a mid- to upper-level dealer of heroin and cocaine, using those
houses. The court issued the warrant, and the task force executed the search and seized additional
evidence.
On October 5, 2017, the task force obtained another warrant for the 1416 property,
executed that warrant, and arrested Williams when he fled the rear of the property carrying drugs.
The federal grand jury indicted Williams on eight counts related to heroin, cocaine, and guns.

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 2

Case No. 20-3310, United States v. Williams
On July 17, 2018, Williams moved to dismiss the indictment, claiming the warrants were
invalid because "[flederal agents have no authority to execute a warrant issued by a Hamilton
County judge." Following an evidentiary hearing on August 27, 2018, the court denied the motion,
explaining that the warrant was obtained and executed by the federal-state-local task force which
may lawfully execute a state-court-issued search warrant.
Williams moved the court to reconsider, arguing that the DEA Agent violated Federal
Criminal Rule 41(b)(1), which allows a state court to issue a warrant to a federal agent when a
federal magistrate judge is unavailable. Williams argued that, because the federal agent did not
show that a federal magistrate judge was not "reasonably available" to issue the warrant, the state
warrant was invalid. The court denied the motion, holding that a joint federal-state task force can
use a state-court-issued search warrant based on a state-law crime. See United States v. Rich, 2017
WL 4707486, at *8 (E.D. Mich. Oct. 20, 2017); United States v. Duval, 742 F.3d 246, 254 (6th
Cir. 2014); United States v. Bennett, 170 F.3d 632, 635 (6th Cir. 1999).
On October 24, 2018, Williams moved to dismiss under the Speedy Trial Act (STA), but
the district court explained that the STA' s 70-day rule is subject to excludable periods, such as for
the court's consideration of motions, pre-trial proceedings, competency examinations, and other
procedural matters. The court recounted the procedural history, determined that Williams had not
shown 70 days of non-excluded delay, and denied the motion.
From September 11 to 18, 2019, the Government tried the case to a jury, which convicted
Williams on all eight counts. The court sentenced Williams to 420 months in prison.
IL
Williams says the search warrant was invalid because a federal agent cannot obtain a
warrant from a state court unless the agent shows that a federal magistrate judge was unavailable
to issue it, and the agent here did not do so. The district court rejected this claim several times.
2

(3 of 8)

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 3

Case No. 20-3310, United States v. Williams
In an appeal of a denial of a motion to suppress evidence, we review the district court's
factual findings for clear error and its legal conclusions de novo, viewing the evidence in the light
most favorable to the government. United States v. Snoddy, 976 F.3d 630, 633 (6th Cir. 2020).
Criminal Rule 41(b)(1) allows a state court to issue a search warrant to a federal agent if a
federal magistrate judge is unavailable. According to Williams, this means that a federal agent's
"participation" requires that the warrant may be issued only by a federal court.
Williams is wrong. In a task-force investigation by state and federal authorities, the
officers have the flexibility to seek a warrant from the state court based on state law violations,
and the Federal Rules of Criminal Procedure do not apply. Duval, 742 F.3d at 254. In the warrant
request here, the DEA Agent, joined by a Cincinnati Police Officer, claimed probable cause to
believe that Williams was dealing heroin, in violation of O.R.C. §§ 2925.11 and 2925.03.
But, even if the task force had violated Rule 41, that would trigger the exclusionary rule
only if "1) there was prejudice in the sense that the search might not have occurred or would not
have been so intrusive if the Rule had been followed, or 2) there is evidence of intentional and
deliberate disregard of a provision of [Rule 41]." United States v. Hopper, 58 F. App'x 619, 627
(6th Cir. 2003) (citing United States v. Searp, 586 F.2d 1117, 1125 (6th Cir. 1978)). Williams has
not claimed any prejudice, in the district court or here, from the state-rather-than-federal warrant.
He never claimed that a federal magistrate judge would have denied the warrant, that the scope of
the search would have been different, or that the searches were unconstitutional. There is no reason
to doubt that, had the officers applied to a federal magistrate judge, they would have obtained the
same warrant, conducted the same searches, and seized the same evidence.
Moreover, Williams has no evidence that the officers intentionally or deliberately
circumvented Rule 41(b)(1). The record shows that, when the officers sought the search warrants,
there had been no decision as to whether to prosecute Williams at the state or federal level. In fact,
3

(4 of 8)

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 4

Case No. 20-3310, United States v. Williams
both officers testified that the decision to pursue any charges at all against Williams was not made
until over a month later, when Williams stopped cooperating with law enforcement.
Finally, contrary to Williams's conclusory claim, a violation of Rule 41(b) does not render
a state-issued search warrant void ab inicio. It merely raises the exclusionary rule, as just
discussed. See id. That would also raise the good-faith exception, though we need not—and do
not—consider that here. This claim has no merit.
III.
Williams appeals the district court's denial of his Speedy Trial Act (STA) claim. We
review the court's legal rulings de novo and its factual findings for clear error. United States v.
Sobh, 571 F.3d 600, 602 (6th Cir. 2009). We review the court's grant of an ends-of-justice
continuance for an abuse of discretion. United States v. White, 920 F.3d 1109, 1112 (6th Cir. 2019).
The STA requires that trial begin within 70 days of indictment or arraignment, whichever
is later. 18 U.S.C. § 3161(c)(1); United States v. Marks, 209 F.3d 577, 586 (6th Cir. 2000). But
the STA's 70-day rule has excludable periods for—among other things—the consideration of
motions, pre-trial proceedings, and competency examinations. § 3161(h).
Williams contends that 137 STA days passed between his arraignment and his trial,
exceeding the STA's permissible 70 days and making his conviction invalid. His count of 137
days is based on certain assumptions and calculations, the most significant being 75 days from the
court's denial of the last motions (June 28) to the court-ordered start of trial (September 9).
The court scheduled trial for September 9 with an express finding that the STA clock was
tolled (negating those 75 days that Williams relies on) while the prosecution coordinated with the
U.S. Marshal Service to have two incarcerated witnesses appear to testify. Williams argues that
only one of the two actually testified and offered minimal and inconsequential testimony, so the
delay was "inherently unreasonable" and, therefore, a violation of the STA.
4

(5 of 8)

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 5

Case No. 20-3310, United States v. Williams
On June 28, the district court explained that starting trial on September 9 would comply
with the STA because the Marshals would need eight weeks to secure the presence of the two
incarcerated witnesses. See § 3161(h)(3)(A) ("Any period of delay resulting from the absence or
unavailability of . . . an essential witness."); United States v. Patterson, 277 F.3d 709, 710-12 (4th
.Cir. 2002). The court also imposed an ends-of-justice continuance until September 9. See
§ 3161(h)(7) ("the ends of justice served by the granting of such continuance outweigh the best
interests of the public and the defendant in a speedy trial"). The court found that the delay was
necessary to afford counsel time for effective trial preparation after the numerous outstanding
motions had been decided, which would ensure fairness and prevent a miscarriage of justice. On
appeal, Williams challenges the first reason (to obtain witnesses) but not the second (ends of
justice). The Government contends that the second reason decides this appeal.
The Government also argues that Williams forfeited a challenge to the June 28 continuance
because he did not move to dismiss after the court's ruling and prior to trial. The STA says that a
defendant waives the STA claim if he does not move the trial court for dismissal prior to trial.
§ 1362(a)(2); United States v. Sherer, 770 F.3d 407, 411 (6th Cir. 2014) ("A court need only
consider alleged delay which occurs prior to and including the date on which the motion [to
dismiss] is made [and the] right to challenge any subsequent delay is waived unless the defendant
brings a new motion to dismiss."). On June 24, 2019, the court scheduled trial for September 9.
At the same hearing, Williams moved for STA dismissal as of that date, which the court denied
orally and explained in more detail in the June 28 order. Williams never moved the court for STA
dismissal after June 24, but the court's June 28 order noted William's continuing objection.
Even if Williams did not waive the STA claim, the court's ends-of-justice continuance was
not an abuse of discretion. When a district court exercises its discretion to grant a continuance
based on an ends-of-justice finding, the defendant must show actual prejudice to obtain a reversal
5

(6 of 8)

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 6

Case No. 20-3310, United States v. Williams
of a conviction under the STA. United States v. Stewart, 628 F.3d 246, 254 (6th Cir. 2010).
Williams has not alleged or even alluded to any prejudice. This claim has no merit.
Iv.
Williams appeals the district court's denial of his Criminal Rule 29 motion for acquittal
based on insufficient evidence. We review de novo to determine "whether, after viewing the
evidence in the light most favorable to the prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt." United States v. Mathis, 738 F.3d
719, 735 (6th Cir. 2013) (quoting Jackson v. Virginia, 443 U.S. 307, 319 (1979)). "In making this
determination, however, we may not reweigh the evidence, reevaluate the credibility of- itnesses,
or substitute our judgment for that of the jury." Id. (quotation marks and citation omitted).
In briefing this appeal, Williams's attorney has expressly accused (1) the task force agents
of planting evidence and committing perjury, (2) the prosecutor of suborning perjury and
committing fraud on the court, and (3) the district court judge of participating in this illegality.
There is no dispute about the facts that underlie these accusations:
A man named Crittenden, subject to the same investigation, had entered a
guilty plea in a separate case prosecuted in federal court in Kentucky.
A forfeiture charge in Crittenden's case listed six specific guns, asserting
that they were seized during a search of Crittenden's residence in July 2017.
Williams's indictment charged him with possessing those same six guns.
The prosecution witnesses at Williams's trial testified that task force agents
seized those guns from Williams's home during the August 2017 search.
Williams's attorney contends that these facts have only one explanation: the task force seized those
guns from Crittenden in July, planted them at Williams's house, and lied about finding them at
Williams's house in August. Moreover, he insists, the prosecutor must have known about and
suborned this perjury, and the district court must have known and "acquiesced" to it.

6

(7 of 8)

Case: 20-3310 Document: 68-2 Filed: 07/21/2021

Page: 7

Case No. 20-3310, United States v. Williams
At Williams's trial, multiple officers testified that they found those guns at Williams's
home during the August 2017 search, and that Williams had admitted they were his. On crossexamination of the DEA Agent, the defense produced the forfeiture indictment from Crittenden's
case, which listed those exact same six guns by description and serial number, as proof that those
six guns were seized from Crittenden during the July 2017 search of his house. The DEA Agent
testified that those guns must have been listed in Crittenden's forfeiture indictment by mistake,
explaining that Crittenden was the task force's original target when the investigation began, so his
case file was the main case file, and the guns were likely misfiled under that case file. The DEA
Agent further explained that he had not been involved when the federal prosecutor in Kentucky
prepared Crittenden's forfeiture indictment in January 2018 and, apparently, it was mistaken.
Because the jury convicted Williams as charged, we must conclude that the jury believed
this explanation. "A trial witness's credibility [] is not relevant on review of a Rule 29 motion for
judgment of acquittal." United States v. Cordero, 973 F.3d 603, 614 (6th Cir. 2020) (quotation
marks omitted). "It was the jury's prerogative to believe what [the witness] had to say." Id.
V.
We AFFIRM the judgment of the district court.

7

(8 of 8)

Case: 20-3310 Document: 71-1

No. 20-3310
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

(1 of 2)

Page: 1

Filed: 08/19/2021

FILED
Aug 19, 2021
DEBORAH S. HUNT, Clerk

UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.

ORDER

QIAN WILLIAMS,
Defendant-Appellant.

BEFORE: BATCHELDER, WHITE, and DONALD, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court. No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

Case: 20-3310 Document: 71-2 Filed: 08/19/2021

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: August 19, 2021

Mr. Paul Croushore
Law Office
P.O. Box 75170
Cincinnati, OH 45275-0000
Re: Case No. 20-3310, USA v. Qian Williams
Originating Case No.: 1:17-cr-00117-1
Dear Mr. Croushore,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Kevin Koller
Enclosure

(2 of 2)

